<html>
<title> - S. Hrg. 112-923 NOMINATIONS OF WILLIAM C. OSTENDORFF, RICHARD C. HOWORTH AND LIEUTENANT GENERAL THOMAS P. BOSTICK</title>
<body><pre>[Senate Hearing 112-923]
[From the U.S. Government Publishing Office]





 

                                                        S. Hrg. 112-923

NOMINATIONS OF WILLIAM C. OSTENDORFF, RICHARD C. HOWORTH AND LIEUTENANT 
                       GENERAL THOMAS P. BOSTICK


=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATIONS OF WILLIAM C. OSTENDORFF TO BE A MEMBER OF THE NUCLEAR 
                         REGULATORY COMMISSION;

  RICHARD C. HOWORTH TO BE A MEMBER OF THE BOARD OF DIRECTORS OF THE 
                    TENNESSEE VALLEY AUTHORITY; AND

          LIEUTENANT GENERAL THOMAS P. BOSTICK TO BE CHIEF OF 
       ENGINEERS/COMMANDING GENERAL, U.S. ARMY CORPS OF ENGINEERS

                               __________

                              MAY 25, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________




                     U.S. GOVERNMENT PUBLISHING OFFICE
88-768 PDF                WASHINGTON : 2015                     
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa8bfa08facbabcbba7aaa3bfe1aca0a2e1">[email&#160;protected]</a>  




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director

                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 25, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Webb, Hon. Jim, U.S. Senator from the Commonwealth of Virginia...     6
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...     7
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...     8
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     9
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    11
Lautenberg, Hon. Frank, R., U.S. Senator from the State of New 
  Jersey.........................................................    12
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    13
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    15
Bozeman, Hon. John, U.S. Senator from the State of Arkansas......    16

                               WITNESSES

Ostendorff, William C., nominated by President Obama to be 
  Commissioner, Nuclear Regulatory Commission....................    17
    Prepared statement...........................................    19
    Responses to additional questions from:
        Senator Boxer............................................    20
        Senator Lautenberg.......................................    24
        Senator Udall............................................    25
Howorth, Richard, C., nominated by President Obama to be a member 
  of the Tennessee Valley Authority Board of Directors...........    28
    Prepared statement...........................................    30
    Responses to additional questions from:
        Senator Boxer............................................    32
        Senator Inhofe...........................................    34
Bostick, Lieutenant General Thomas P., nominated by President 
  Obama to be Chief of Engineers/Commanding General, U.S. Army 
  Corps of Engineers.............................................    36
    Prepared statement...........................................    38
    Responses to additional questions from:
        Senator Boxer............................................    41
        Senator Baucus...........................................    44
        Senator Inhofe...........................................    47

 
  NOMINATIONS OF WILLIAM C. OSTENDORFF TO BE A MEMBER OF THE NUCLEAR 
 REGULATORY COMMISSION; RICHARD C. HOWORTH TO BE A MEMBER OF THE BOARD 
OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY; AND LIEUTENANT GENERAL 
 THOMAS P. BOSTICK TO BE CHIEF OF ENGINEERS/CONMMANDING GENERAL OF THE 
                      U.S. ARMY CORPS OF ENGINEERS

                              ----------                              


                        WEDNESDAY, MAY 25, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Cardin, Lautenberg, 
Carper, Alexander, Vitter, Barrasso, Boozman, Sessions.
    Also present: Senators Webb, Cochran, Wicker.

  STATEMENT OF THE HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. The Committee will 
come to order.
    I just want to say before anything else that our hearts go 
out to all the people across this country that are dealing with 
the most extraordinary weather events. I know that Senator 
Inhofe in particular was just, I was just riveted to see what 
was going on in Oklahoma. I heard the Governor speak, and I 
just, my heart is with everybody there in Missouri and Texas, 
it is just happening all over. So I wanted to make sure that 
was on the record.
    Senator Inhofe. Let me respond to that, please.
    Senator Boxer. Yes, please.
    Senator Inhofe. It has been a real tragedy. Those of us 
from Oklahoma and Kansas and Northern Texas, they call that 
Tornado Alley, and a lot of the people, I have been in aviation 
for many years, and a lot of people, actually won't even fly 
through that area. We have really been through it. Three weeks 
ago, we had another community go through it, just like El Reno 
in Oklahoma, Piedmont last night. My wife was down in the 
basement with a lot of our staff who didn't have basements.
    So I appreciate your sympathy for our plight, not just us 
but also Texas, Kansas and Missouri, who are having the same 
kinds of problems.
    Senator Boxer. Thank you for your remarks.
    Well, today, we are here to consider nominations for three 
important positions within the NRC, the Nuclear Regulatory 
Commission; also the Tennessee Valley Authority and the U.S. 
Army Corps of Engineers. We have three esteemed colleagues with 
us who I will call on after I make a comment. We will try to 
hold comments, if we can, until after our colleagues speak.
    So I will just do a quick opening, Senator Inhofe will do a 
quick opening. After our three colleagues, we will turn to the 
rest of our colleagues.
    Is that all right with everybody? Good.
    So first, I would like to say, Mr. Ostendorff, if you could 
raise your hand high, we welcome you. Current commissioner on 
the Nuclear Regulatory Commission, he has been renominated for 
a 5-year term. We know the NRC is an independent agency created 
by Congress to regulate nuclear powerplants and use of nuclear 
materials through licensing, inspection and enforcement. By 
statute, they are charged with protecting the health and the 
safety of the American people and minimizing the danger to life 
or property.
    We certainly know, after what happened in Japan, that the 
NRC is taking steps to do just that. We know that their 
resident inspectors have inspected and issued reports on the 
104 operating nuclear reactors and their ability to address 
power losses or damage during extreme events and following 
extreme events. The NRC is conducting a 90-day review of its 
processes in light of what happened in Japan. I think it is a 
good first step. But I expect the NRC to take a hard look at 
current practices and making more improvements to current 
safeguards.
    I want to quickly say, NRC inspectors have already 
identified deficiencies at the two nuclear powerplants in 
California. I want to make sure those plants undergo thorough 
reviews and implement the changes necessary, because we have 
millions of people who live within 50 miles of those.
    This committee will hold an NRC oversight hearing next 
month, and we will learn more then. So I do look forward to 
Commissioner Ostendorff's testimony and response to questions.
    I would also like to welcome Richard Howorth. Would you 
raise your hand? Hello. Mr. Howorth is nominated to be a member 
of the Tennessee Valley Authority. Congress created TVA in 1933 
as part of President Roosevelt's New Deal. It was an ambitious 
and unprecedented government effort to help a deeply 
impoverished area. TVA's mandate is to be a national leader in 
technological innovation, low-cost power, environmental 
stewardship. We know the great opportunities for jobs that lie 
within that mandate.
    We understand TVA may expand its reliance on nuclear power. 
However, earlier this month, one of TVA's three nuclear plants 
received a red finding, the most serious, from the NRC, for a 
faulty valve that could have impaired emergency cooling and 
could have risked core damage. So in light of what is 
happening, TVA needs to make sure its nuclear powerplants are 
safe and secure.
    So I do look forward to Mr. Howorth's testimony.
    Finally, I would like to welcome Lieutenant General Thomas 
Bostick, hello, sir, nominated to be Chief of Engineers, 
Commanding General of the U.S. Army Corps. General Bostick, 
while your nomination is not in our committee's jurisdiction, I 
appreciate your agreeing to appear today, given our oversight 
responsibility for the Corps' civil works. The Army Corps is so 
critical to the people. We know the historic floods on the 
Mississippi River clearly demonstrate the importance of flood 
control infrastructure. We know General Walsh is working 24-7 
on that to spare lives and property.
    In my State, we rely on levees. In partnership with the 
Corps, Sacramento has invested significant funding to initiate 
design and construction of levees. We have extraordinarily 
large populations in that flood plain. So there is a lot at 
risk there. The Corps maintains harbors, such as in Oakland and 
Long Beach, which facilitate the flow of much of our Nation's 
commerce. Many of the Nation's most ambitious efforts to 
restore degraded ecosystems, such as the Everglades and the 
Coast of Louisiana, are led by the Corps.
    So I do expect the Corps to play an important role as 
efforts continue in all these projects, and in California's Bay 
Delta. Strong leadership is needed. I also look forward to 
working with everybody on both sides of the aisle, for sure, on 
a WRDA bill. We have to get through this matter of figuring out 
how you write a bill without naming a project, when that is 
what the WRDA bill is. So I don't know another way to do it. I 
almost call him my co-chairman, on issues such as this, we 
really need to figure it out. We are working to do that.
    So that is where we are. It is now my privilege to call 
upon my Ranking Member, my friend, Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Chairman Boxer. First of all, 
the nomination of William Ostendorff to serve the Nuclear 
Regulatory Commission, he has served with such dignity in the 
past, I don't think anyone can find anyone who knows more about 
this issue and this subject than Commissioner Ostendorff. In 
his 26-year career in the U.S. Navy, he was elevated to the 
rank of Captain, commanded a squadron of attack submarines and 
served as the director of the math and science division at the 
U.S. Naval Academy.
    He also served as counsel for the staff director for the 
House Armed Services Committee, which I knew him at that time, 
and on Strategic Forces and a principal deputy administrator. 
In his current role as commissioner, he contributes knowledge 
to the reactor operations and nuclear security issues that is 
unmatched by his colleagues. His perspective is essential to 
the commission's work as it unravels lessons learned from the 
Fukushima accident and concludes its review of the first new 
nuclear plant licenses in over 30 years.
    It is very significant, I think that I could really cut it 
short. I notice that Senator Webb is going to be here to make 
an introduction. I also saw this morning, Madam Chairman, an 
article that quoted U.S. Senator Patty Murray, that supports 
Ostendorff's nomination, given the full slate of issues pending 
before the Nuclear Regulatory Commission. I believe it is 
imperative that we have a full set of commissioners. So he 
enjoys the endorsement of Democrats and Republicans alike.
    Today we also will be honored to consider the nomination of 
Richard Howorth to serve on the board of the Tennessee Valley 
Authority. He was a fellow mayor. I often say to my colleagues 
here, you don't know what a hard job is until you have been a 
mayor. There is no hiding place. So I know what you have been 
through.
    Today we will also hear from General Bostick. While the 
Chairman is correct in that technically, it doesn't have to go 
through this committee, it will be going through the Armed 
Service Committee, of which I am the second-ranking member. We 
will look forward to treating that nomination.
    It is very important, in a challenging time that we have 
significant water resources needs across the country, and the 
Corps is currently engaged in an historic flood fight along the 
Mississippi River. I commend the Corps for their work.
    Additionally, in my State of Oklahoma, where many important 
water projects, such as the dredging of the McClellan-Kerr 
Waterway, a lot of people don't realize that my State of 
Oklahoma is actually the home of the most inland port in 
America. So we have that dog in the fight too. So we will look 
forward to working with you, General, in that new capacity.
    Last, the Chairman talked about the WRDA bill and how 
important that is, and what our role is going to be at that 
time. I would like to finally, I have talked to Senator Boxer 
about this, I understand that the staff has talked about trying 
to move today's nominees through the committee in the week of 
June 4. That is when we come back, next week. I would ask, is 
that the intention of the Chair?
    Senator Boxer. It is.
    Senator Inhofe. Good. I look forward to that, and we need 
to keep moving with that.
    I only have two other things I want to mention. There was 
an article this morning in Politico that talks about the fact 
that I have been wanting to have, there is lots of legislation 
on some of this regulation, I am talking about the Boiler MACT 
regulation, Utility MACT, the cap and trade, the ozone and all 
these things, about the cumulative effect it has on business 
and industry. It is very significant.
    So I have been wanting to, the article this morning, Madam 
Chairman, in Politico, said I was going to suggest shadow 
hearings. I don't think that will be necessary, because I think 
you are looking forward to having those anyway.
    Senator Boxer. We are, yes.
    Senator Inhofe. All right.
    Senator Boxer. Come out of the shadows.
    Senator Inhofe. Last, I don't think we are going to be 
talking about it today, but we are joining together and trying 
to do something with a transportation reauthorization bill. We 
have been trying now for a long period of time. The opposition 
is not really partisan, it is just opposition. We are going to 
try to overcome it with an announcement we are making today.
    I might add that I have several people from my State of 
Oklahoma who are here and interested in the transportation 
bill.
    Senator Boxer. Good.
    Senator Inhofe. I told them how closely we work together. 
Thank you.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you, Chairman Boxer, for holding this hearing. One of the 
Senate's more important responsibilities is to offer advice and provide 
consent to the President's nominations.
    The nomination of William Ostendorff to serve on the Nuclear 
Regulatory Commission (NRC) is crucial, especially as the Commission 
continues to make important decisions regarding nuclear safety. Only 
last year, he was confirmed in the Senate by unanimous consent to serve 
the remainder of a term, and President Obama has renominated him to 
serve another full, 5-year term. Commissioner Ostendorff's 
qualifications are stellar: In his 26-year career in the U.S. Navy, he 
was elevated to the rank of Captain, commanded a squadron of attack 
submarines, and served as the Director of the Math and Sciences 
Division of the U.S. Naval Academy. He also served as Counsel and Staff 
Director for the House Armed Services Subcommittee on Strategic Forces 
and as Principal Deputy Administrator for the National Nuclear Security 
Administration.
    In his current role as Commissioner, Ostendorff contributes 
knowledge of reactor operations and nuclear security issues that is 
unmatched among his colleagues. His perspective is essential as the 
Commission works to unravel lessons learned from the Fukushima accident 
and concludes its review of the first new nuclear plant licenses in 
over 30 years. The public would be ill-served if politics impedes the 
confirmation of one of the Commission's most distinguished members--and 
the only one with significant reactor operations and nuclear security 
experience.
    We are also considering the nomination of Richard Howorth to serve 
on the board of the Tennessee Valley Authority. Mr. Howorth was Mayor 
of Oxford, MS from 2001-2009. In this capacity, he served as chairman 
of the Oxford Electric Department, a municipal customer of TVA. He also 
served 8 years as a director and officer of the North Mississippi 
Industrial Development Association, an economic development consortium 
made up of power association directors and mayors of cities in 29 
Mississippi counties in the Tennessee Valley Authority service area.
    Today, we will hear from Lieutenant General Thomas P. Bostick who 
is nominated to be the Chief of Engineers/Commanding General for the 
U.S. Army Corps of Engineers. General Bostick has had a distinguished 
military career and is currently serving as Deputy Chief of Staff for 
the U.S. Army. Although nominations for this post are officially in the 
jurisdiction of the Armed Services Committee, I think it's important 
that we hear from him given the importance of water resources issues to 
this Committee.
    General Bostick's nomination comes at a very challenging time--we 
have significant water resources needs across the country and the Corps 
is currently engaged in a historic flood fight along the Mississippi 
River. I commend the Corps for their work and I hope that the committee 
will have an opportunity to learn more about the Corps' efforts in the 
near future.
    Additionally, in my home State of Oklahoma, there are many 
important water resources projects--from dredging the McClellan-Kerr 
Arkansas River System to 12 feet to the Arkansas River Corridor Master 
Plan--that should be priorities.
    In previous fiscal years, the Arkansas Senators and I have 
requested funding to deepen the McClellan-Kerr Arkansas River 
Navigation System to a depth of 12 feet in Oklahoma consistent with the 
vast majority of the 445-mile-long System. Currently the portion of the 
System in Oklahoma only provides a 9-foot depth. This funding would 
deepen the navigation channel to a depth of 12 feet consistent 
throughout the System as authorized by the fiscal year Energy and Water 
Development Appropriations Act which also provided $7 million of 
operations and maintenance funds to begin work for the 12-foot channel. 
One billion dollars of trade transportation already reaches ports in 
Oklahoma through the McClellan-Kerr System. Barge traffic delivers $1.3 
million per day in commerce to Oklahoma. Deepening this channel to 12 
foot is not only consistent with the remainder of the System but will 
significantly enhance economic development and job creation in 
Oklahoma.
    The Water Resources Development Act of 2007 authorized the 
Secretary of the Army to participate in the construction of features 
identified in the Arkansas River Corridor Master Plan for flood risk 
management, ecosystem restoration, and recreation. Based on two 
independent economic analyses, local officials estimate that 
implementation of the Arkansas River Corridor Master Plan would 
initially create several hundred jobs. Those estimates grow to creating 
nearly 10,000 new jobs after full construction under the Plan. 
Implementation of this plan is one of my major priorities.
    Improving and investing in the Nation's water resources 
infrastructure fosters economic growth, creates jobs, and ensures 
Americans' quality of life. Earlier this year, Chairman Boxer and I 
signaled our intent to draft and move a Water Resources Development Act 
(WRDA). We understand the need for the Administration's involvement in 
this process. General Bostick, I hope you will give us your commitment 
to work closely with the Committee on this critical piece of 
legislation.
    Commissioner Ostendorff, Mr. Howorth, and General Bostick, I look 
forward to hearing from you.

    Senator Boxer. We do. Yes, we do have some great news on 
that. We have an agreement on a skeletal bill, which I believe 
is going to be very, I think very well received by both sides. 
I wanted to say thank you to Senators Baucus and Vitter for 
joining with the two of us in a statement. So it is a good day 
for this committee, a very good day for this committee.
    It is always a good day when we have our colleagues here. 
Senator Webb, I understand that you have a pressing issue. Is 
it OK, Senator Cochran, if he goes prior? OK, go ahead.

STATEMENT OF HON. JIM WEBB, U.S. SENATOR FROM THE COMMONWEALTH 
                          OF VIRGINIA

    Senator Webb. Thank you very much, Madam Chair, Senator 
Inhofe, other members of the committee.
    I would like to begin by joining you in the condolences 
that you expressed. Our fellow Americans who have undergone all 
this tragedy with the tornadoes that have ripped through what 
Senator Inhofe called Tornado Alley, heavily in Missouri, where 
I happen to have been born. All of us share in our willingness 
to try to do something to help those communities.
    I would also like to thank you, Madam Chair, for your 
leadership in agreeing to hold this important hearing in a very 
timely manner, just after the President renominated 
Commissioner Ostendorff to serve a full 5-year term as 
Commissioner of the Nuclear Regulatory Commission, and to 
congratulate the other two nominees who are before you today. 
General Bostick has done a wonderful job in the Department of 
the Army, as manpower chief. I am the personnel committee chair 
that oversees that, and I wish him the best in his new 
assignments.
    I recently traveled to Japan, and during discussions on a 
wide variety of issues was allowed, actually brought by the 
Japanese self-defense forces up to the Sendai area, and was 
able to take a visual reconnaissance of that area of Japan that 
was so tragically devastated by the earthquake and tsunami and 
the aftermath of that. I would agree with the points that you 
made, Madam Chairman, that the incident in Japan will require 
the incorporation of a large number of lessons learned that may 
impact the management of our nuclear sector here. That review, 
and a host of other issues, will require credible and capable 
leaders.
    I don't believe we could find a more credible or more 
capable leader with the type of background and skill sets that 
Commissioner Ostendorff has brought to the NRC. Senator Inhofe 
mentioned a number of these credentials, but let me go over 
them quickly. He is a graduate of the Naval Academy and 
Georgetown Law Center. He has followed a strong career path, 
not only with hands-on experience in the Navy, but also in the 
Congress as someone overseeing policy at the Department of 
Energy, the National Academies, and at the NRC.
    While on active duty in the Navy, Mr. Ostendorff served on 
six submarines, including as commander of the USS Norfolk 
attack submarine. He also commanded 1,200 men and women of 
submarine squadron six, based in Norfolk, VA. After retiring, 
he joined the Strategic Forces Subcommittee of the House Armed 
Services Committee, as Senator Inhofe pointed out, serving as 
counsel and staff director, with oversight responsibilities of 
the Department of Energy's atomic energy defense activities.
    In 2007, he was confirmed by the Senate to become principal 
deputy administrator of the National Nuclear Security Agency. 
In 2009, he joined the National Academies as director of the 
Committee of Science, Engineering and Public Policy. During the 
14 months that Mr. Ostendorff has served as an NRC 
commissioner, he has carried his integrity, professionalism and 
good government approach to execute the NRC's principle of good 
regulation. Mr. Ostendorff and his wife, Chris, are residents 
of Oakton, VA. They have three children. Their daughter, Becky 
is an attorney in New York City. Their son, Chuck just left the 
Army last week as an Army captain after two combat tours in 
Iraq. Another son, Jeff is a backpacking guide with the Boy 
Scouts in New Mexico.
    So I again would like to express my gratitude for your 
moving forward with this nomination on a very timely basis. I 
believe that what Mr. Ostendorff brings to the NRC is going to 
be extremely valuable as we evaluate our nuclear programs in 
the future.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much, Senator. We know you need 
to rush off, so please do that.
    We are very honored to have Senator Cochran here.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Madam Chairman, thank you very much. I am 
very pleased to be here to introduce and recommend Richard 
Howorth from Oxford, MS for confirmation on the Tennessee 
Valley Authority board.
    Mayor Howorth has served as mayor of Oxford, MS, so he is 
familiar with the challenges of public service. But he 
acquitted himself very well. He and his entire family are some 
of the finest citizens we have in our State. So I am sure he is 
going to reflect credit on all of us through his service on the 
TVA board. I am pleased to be here today with my colleague to 
recommend his confirmation.
    He and his fine family are active in a wide range of civic 
and educational interests, the schools, the chamber of 
commerce, the development authority in the region. It is so 
important to our continued growth and prosperity. So it is 
without any qualms whatsoever, but with a great deal of 
pleasure and appreciation that I recommend Richard Howorth for 
confirmation in this important position.
    Senator Boxer. Thank you so much for taking the time out of 
your hectic day to come here for Mr. Howorth. I think you are 
doubly honored, because you have Senator Wicker here.

STATEMENT OF HON. ROGER WICKER, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Wicker. Thank you, Madam Chair, and let me say that 
Senator Cochran knows the importance of brevity. I will try to 
follow suit. I know there are demands on your time today.
    I have a prepared statement, which I ask you to include in 
the record at this time.
    Senator Boxer. Without objection, so ordered.
    Senator Wicker. Let me simply echo what Senator Cochran has 
said. We are both very supportive of this nomination. TVA is 
very important to the economy, not just the power generating 
part of it, but the job creating part, very important to the 
economy of our State. As a matter of fact, my home town of 
Tupelo is known as the first TVA city. Some 329,000 households 
in Mississippi in 36 counties are served by TVA.
    So I want to commend the Administration for nominating a 
Mississippian and a fine Mississippian for the TVA board. 
Richard Howorth is himself a small business person, as Senator 
Cochran said. He was mayor of Oxford for 8 years, and he did 
such a fine job as mayor of Oxford, Madam Chair, that Senator 
Cochran, my colleague, was persuaded to move to Oxford during 
the administration of Richard Howorth.
    [Laughter.]
    Senator Wicker. Richard understands the importance of 
working together at the municipal level with TVA. He is smart, 
he is cooperative. He had a wonderful run as mayor, and you 
will like him and you will enjoy working with him as a board 
member of TVA.
    Thank you very much.
    [The prepared statement of Senator Wicker follows:]
    Statement of Hon. Roger Wicker, U.S. Senator from the State of 
                              Mississippi
    Thank you, Madame Chairman and distinguished members of the 
Committee on Environment and Public Works. I appreciate the opportunity 
to be here today to offer my support for fellow Mississippian, Richard 
Howorth, to serve on the board of directors of the Tennessee Valley 
Authority.
    TVA is important to all of us because it is the Nation's largest 
public utility, but it is especially important to Mississippi. In fact, 
my hometown of Tupelo is proud to be known as America's first TVA city. 
TVA utilities are located in 36 counties and serve more than 329,000 
households in Mississippi. Their service area covers 15,551 square 
miles, about one-third of the entire State of Mississippi and about 18 
percent of TVA's territory.
    TVA also has made significant contributions in the area of economic 
development in Mississippi. In fiscal year 2010, 7,300 jobs were 
created or retained in Mississippi, and $534 million was invested our 
State by TVA. TVA's effective partnerships with its customers and 
communities in Mississippi have helped to produce quality jobs and 
resulted in significant investments in new and existing companies in 
Mississippi. TVA has announced plans for 33 expansion project locations 
in Mississippi.
    TVA's innovative programs and financial assistance combine to 
create powerful tools for sustainable economic development that we hope 
will continue for years and years to come.
    Given these facts, Mississippi deserves representation on the TVA 
Board of Directors. I was pleased to see President Obama nominate 
Richard Howorth, who possesses a wealth of public and private sector 
experience that will serve him well on the Board of Directors for TVA. 
As Mayor of Oxford, 1 of 14 municipally run electric departments in 
TVA's 36-county Mississippi service area, Richard Howorth became 
intimately familiar with the ins and outs of TVA. Earlier, Mr. Howorth 
served 8 years as director and officer of the North Mississippi 
Industrial Development Association, an economic development consortium 
related to TVA.
    It is also important to note that Mayor Howorth is both a household 
and business consumer of TVA power. For 32 years, he and his wife, 
Lisa, have owned Square Books--a wonderful independent book store--on 
the historic square of Oxford, MS. I believe his unique combination of 
private and public experience will provide TVA with an invaluable 
perspective.
    I congratulate Mayor Howorth on his nomination and I look forward 
to working with him in this new endeavor.

    Senator Boxer. Thank you both so very much. We appreciate 
it.
    Mr. Mayor, you should be greatly honored.
    Now we are going to turn to our colleagues in the order of 
their arrival. While you leave, we will start their statements, 
and then we will call up our first nominee. Let's start with 
Senator Cardin. On our side it is Cardin, Lautenberg, Carper. 
On the Republican side, it is Alexander and Vitter.

  STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. First, Madam Chair, let me thank our 
colleagues for their introduction. It certainly helps us when 
the colleagues from the State in which the nominees are 
nominated from are here to share their personal knowledge of 
their qualifications.
    I want to thank all three of our nominees for their 
willingness to serve in the public. It is not an easy time, on 
any of the three positions that are the subject of today's 
hearing to serve. So we thank each of you and we thank your 
families for your continued sacrifice.
    To Mr. Ostendorff, as far as the Nuclear Regulatory 
Commission is concerned, extremely important position. In 
Maryland, of course, we have the Calvert Cliffs nuclear 
facility, which is extremely important to our economy in 
Maryland. As we look forward to a nuclear power policy in this 
country, the Nuclear Regulatory Commission will play a critical 
role. You come to this hearing with incredible credentials and 
experience. We look forward to your testimony and we look 
forward to your continued service.
    In regard to Mayor Howorth, again, thank you for your 
service. The Tennessee Valley Authority is not only important 
for energy, it is important for land management and flood 
control. It is a very important agency. You bring to this 
position the type of experience that I think is very valuable 
for the Tennessee Valley Authority. We thank you very much.
    To Lieutenant General Bostick, you are assuming a position 
of incredible importance to our Nation. In the State of 
Maryland, we depend upon the Army Corps for many water projects 
to keep our economy flowing, not the least of which is the Port 
of Baltimore, which is critically important to our economy. I 
think it is $2 billion of the Maryland economy. Critically 
important.
    We need to get to have the Army Corps focus on the present 
challenges. At the present time, Poplar Island, which is a 
model project for environmental restoration and a site for 
dredged material, has been a very important project that is 
serving now, I think, as a model for other places in the 
country. I mention that, because there are still funding needs 
to complete Poplar Island, and the Army Corps has done an 
incredible job. But Mid-Bay is the next site, and Mid-Bay has 
already passed the Chief's report and has been approved to move 
forward.
    The challenge, and I talked to the Chairman about this, the 
challenge is that this project needs to be authorized through 
Congress, through our Water Resources legislation. The 
challenge is how the Administration is going to help us make 
sure that we move forward with these types of important 
projects. So during your confirmation process, I want to make 
sure that we have you focusing on how we can move these types 
of projects forward, which are critically important to our 
economy and jobs, not just in Maryland, but around the Nation.
    We also want to make sure that the work that you do 
continues the tradition of the Army Corps to be sensitive to 
our environment, and we will be asking for your comments in 
that regard.
    So Madam Chair, I am going to put my entire statement into 
the record. I will look forward to the witnesses' testimony.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Madame Chairman:
    Thank you for holding this hearing today.
    I look forward to hearing from the nominees, each of whom is being 
considered for a role that is critically important to the protection of 
our environment, with implications for human health and safety, 
economic growth, and countless other issues of vital importance to our 
Nation.
    The Nuclear Regulatory Commission provides the regulation and 
safeguards that are so crucial to the operation of our Nation's nuclear 
system. My home State of Maryland is home to one operating nuclear 
plant, Calvert Cliffs in Calvert County, and its safe and reliable 
operation is of paramount importance to my constituents.
    In addition to providing electricity to millions of people 
throughout the southeast, the Tennessee Valley Authority provides 
critical flood control, land management, and economic development 
services for the Tennessee River system. Because of its wide reach, the 
TVA's policy decisions--including with respect to such issues as coal 
ash, coal-fired plants, and mountaintop removal mining--have 
significant impacts on environmental quality in the region.
    I am especially interested to learn more from Lt. Gen. Bostick, who 
is nominated to lead the U.S. Army Corps of Engineers. I represent a 
State that is home to a number of critical Army Corps civil works 
programs.
    The Chesapeake Bay is the largest estuary in the Nation: home to an 
invaluable diversity of animal and plant life and a major economic 
driver for the entire mid-Atlantic region. The Corps' oyster and 
habitat restoration, shoreline protection, and sediment management 
programs are critical to the health of the Bay.
    The Port of Baltimore, one of the largest ports on the east coast 
and worth about $2 billion per year to Maryland's economy, is in the 
midst of a major expansion that will make it even more central to the 
global shipping economy. The navigation channels serving the Port of 
Baltimore are therefore critical to Maryland's economic future and that 
of the Nation. Beyond the Port of Baltimore, Maryland also has more 
than 70 smaller Corps of Engineers navigation projects around the 
Chesapeake Bay and Atlantic Ocean. In Western Maryland, the Corps 
provides essential flood protection and water supply services in 
Western Maryland.
    As you can see, the Corps of Engineers is deeply involved in the 
safety, economic well-being, and environmental health of the State of 
Maryland. I therefore anticipate working especially closely with Lt. 
Gen. Bostick going forward.
    I want to thank each of the nominees for their time; I look forward 
to their testimony.

    Senator Boxer. Thank you so much, Senator.
    Senator Alexander.

STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM THE STATE 
                          OF TENNESSEE

    Senator Alexander. Thanks, Madam Chair. I want to 
congratulate the President for three excellent nominations. 
First, for the Tennessee Valley Authority, while most of TVA 
serves Tennessee, it serves other States in important ways, and 
it strengthens the Tennessee Valley Authority to have strong 
nominees from other States.
    I will be looking forward to talking with Mr. Howorth about 
what his thought is about the mission of TVA today, and 
especially in light of the $4 gasoline prices, what we can do 
to encourage the use of electric cars and trucks. TVA is a 
Federal utility, it ought to be a model for the rest of the 
country. It is astonishing to me that we sit here worrying 
about $4 gasoline when we have enough fuel sitting on the 
sidelines in terms of unused electricity at night, which could 
power 40 percent of our cars and trucks at a lower cost without 
using oil. A big utility like TVA ought to be able to do 
something about that.
    As far as the Nuclear Regulatory Commission, Mr. Ostendorff 
has been twice in the last year to the only nuclear reactor in 
America currently under construction. That is in the TVA 
system, at Watts Bar. I will be interested in talking with him 
about his sense of the progress there, and the interaction of 
that with the TVA decisions. For example, TVA has just decided 
to close some coal plants and put pollution control equipment 
on others. But if it does that, where will it get its energy? 
It will have to come from nuclear power.
    So TVA is at the same time a leader in the country on 
nuclear power, a leader in the country on energy efficiency, a 
leader in the country on clean air, because of the number of 
pollution control devices it will be placing on its coal plants 
between now and 2020. It is important that the Nuclear 
Regulatory Commission have strong leadership, people who are 
not afraid of nuclear power, but are not afraid also to ask 
tough questions about it and make sure that our plants are 
operated safely, as they have been.
    I think it is always important, particularly in light of 
the tragedy in Japan, that we remember that the nuclear 
reactors that Mr. Ostendorff worked on when he was in the Navy, 
there are 104 of them today, there has never been a fatality 
since the 1950s. There has never been a fatality in any of the 
civilian reactors. We have 104 of those. We want to keep it 
that way. So that is why I am glad Mr. Ostendorff is here.
    I want to also welcome Mr. Howorth's family, whom I had a 
chance to meet earlier.
    General Bostick, I thank you for your willingness to take 
on this responsibility. I want to congratulate the Corps of 
Engineers for what in my judgment is an excellent job of 
management of the Mississippi River during the last several 
weeks. It hasn't been easy for a lot of families who have been 
hurt by the flooding. But that wasn't the Corps' fault, the 
Corps managed things well and the levees seemed to work at 
Memphis and apparently in New Orleans and other places. Colonel 
Reichling and others have done a good job. I want to thank you 
for that, because I know the Corps gets lots of advice and 
comments.
    One thing I want to be asking you about, and I hope you 
will be thinking about it, is the Inland Waterway Trust Fund. 
The Chickamauga Lock is an example. We all ask about the locks 
and the harbors that matter to us. Chickamauga matters to 
Tennesseeans. It is crumbling, it will have to close in a few 
years if it is not fixed. Nothing is happening there.
    My question is, why is it not on the priority list, No. 1, 
and No. 2, why did the Corps walk away from a proposal from 
industry to raise fees on itself to put another money in the 
Inland Waterway Trust Fund to be able to move ahead with very-
needed projects like the Chickamauga Lock? If the Corps is 
going to walk away from a proposal by industry to basically tax 
itself, then what is the Corps' proposal for dealing with these 
urgent projects?
    I want to ask about that when the time comes. But I thank 
you, Madam Chair. I think these are three excellent nominees. I 
look forward to supporting them and to having a chance to ask 
questions of the three of them.
    Senator Boxer. Very good.
    Senator Lautenberg.

STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR FROM THE STATE 
                         OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chair.
    I want to begin by thanking today's nominees for agreeing 
to serve our country. I too want to commend the Chairman for 
mentioning the difficulties in Missouri and along the 
Mississippi River. We send our condolences, and I hope that we 
will stand up and send our services there as requested, when we 
face that, when we have a chance to do it.
    If confirmed, William Ostendorff, Lieutenant General Thomas 
Bostick and Richard Howorth will play a significant role in 
protecting our country's environmental and economic well-being. 
William Ostendorff is nominated, as you know, to be a member of 
the NRC, which is critical to keeping America's nuclear 
facilities and materials safe and secure. There was a time not 
too long ago when one couldn't mention nuclear in full voice, 
because we didn't know what the reaction was going to be in the 
public. The reaction now says it is a vital part of our power 
production, and we have to figure out the safest ways to do it.
    This mission is always important, but it has taken on an 
added urgency in the aftermath of the disaster in Japan, where 
the world's worst nuclear emergency since Chernobyl is still 
unfolding. Fortunate, there have been few nuclear accidents and 
few injuries here in the United States. But we can't afford to 
take our success for granted. Today's New York Times has an 
article, and the headline there says, ``Risk from spent nuclear 
fuel is greater in the United States than in Japan,'' so says 
the study. We will have a chance to talk about that.
    This means revisiting the laws intended to keep nuclear 
plants safe by strengthening the NRC's regulation and ensuring 
plants are all in compliance at all times. It also means doing 
a better job making sure that Americans know what to do in the 
case of a nuclear emergency.
    In March, I was troubled to learn that when American 
citizens in Japan were told to stay at least 50 miles away from 
the site of the meltdown, in our country the NRC's emergency 
guideline required only plans to evacuate people to an area 10 
miles from a plant. We shouldn't be sending mixed signals to 
the public. The stakes are too high. This is one reason why it 
is so important to ensure that all the seats on the NRC are 
filled. These five commissioners are among our country's most 
important guardians, and we need leaders to fill these seats 
and to help our country make sure nuclear facilities are 
protected and the public is prepared if a crisis arises.
    Safeguarding the public is also the critical mission of the 
Army Corps of Engineers, which builds the infrastructure that 
keeps our economy moving and protects our communities. This 
includes the dams, levees and beaches that shield homes and 
businesses during major storms. We are learning these lessons 
only too quickly and too sharply. The engineering and expertise 
that the Corps provides saves lives. That is why I am pleased 
to be working closely with the Corps on several important 
projects in my home State. I look forward to discussing the 
Corps' work with Lieutenant General Thomas Bostick, who is 
nominated to be the Chief of Engineers and Commanding General 
there.
    Finally, Richard Howorth, nominated to the board of 
directors of the Tennessee Valley Authority, which provides 
electricity for 9 million customers in seven States. What an 
asset the TVA is. The Government owns the Authority, ensuring 
its goal remains public service and not private sector profit. 
So we have to make the Authority a model for environmentally 
sound energy practices, using it as a foundation to build a 
cleaner energy future for the United States.
    Madam Chairman, I look forward to hearing from all of 
today's nominees. We have an excellent group of people that are 
going to appear. I look forward to hearing their testimony. 
Thank you very much.
    Senator Boxer. Thank you, Senator Lautenberg.
    Now Senator Vitter has asked that he retain his extra 5 
minutes, so he will have 10 minutes in the question period. Is 
there any objection to that? If not, it is fine with us.
    So we will call on Senator Barrasso at this time.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    I would like to first thank and welcome the nominees who 
are here with us today, and want to congratulate each and every 
one of you and also want to thank your family members and 
congratulate you as well.
    I had a chance to visit with Mr. Ostendorff. You have 
exemplary credentials and experience in the field, currently 
serving on the Nuclear Regulatory Commission. I believe it is 
important, as stated by the NRC chairman and by others that the 
Commission needs to operate at full strength. I believe it is 
important that that be done quickly and the American people do 
not want their elected representatives playing politics with 
nuclear safety. The nuclear incident in Japan is a stark 
reminder of that.
    So as the Ranking Member of the Clean Air and Nuclear 
Safety Subcommittee, I believe it is vital to have the full 
complement of commissioners available to address the safety 
reviews of our domestic nuclear powerplants and urge swift 
confirmation of Mr. Ostendorff.
    One of the key qualities for any nominee before us today is 
that they make decisions in a transparent way. I believe that 
major decisions that have real policy implications on the 
ground need to be transparent. Decisions that impact farmers, 
ranchers, small business owners, local communities, all need to 
be conducted through the appropriate administrative procedures 
required by the law.
    When an agency seeks to change or implement rules that will 
have consequences on the public, it must adhere to the 
rulemaking procedures of the Administrative Procedures Act. For 
example, the Supreme Court says there was a limit to the Clean 
Air water jurisdiction. Congress also said that there was a 
limit to the Clean Water Act's jurisdiction when it said waters 
needed to be navigable.
    Well, the EPA and the Army Corps of Engineers now have 
issued what they call guidance that doesn't strike any 
meaningful limit on Clean Water Act permitting authority over 
wet areas of the 50 States. The agencies have stated that they 
intend to finalize this guidance and then potentially do a 
rulemaking in the future.
    Now, I disagree with this approach and I believe that it 
violates the requirements of the law. If the agencies want to 
eliminate the limits on their jurisdiction, then they should be 
asking Congress for that authority. However, I doubt that 
Congress would grant that request. When changing a regulation, 
the Agency should follow the Administrative Procedures Act.
    Unfortunately, this Administration is instead making major 
decisions through guidance. The proposed guidance is intended 
to and will have a material impact on Clean Water Act 
permitting and enforcement nationwide, and multiple industries 
and stakeholders will be subject to the new criteria set forth 
by the agencies.
    The response from the Administration to these concerns is 
that this is ``simple guidance,'' it does not have the force of 
law, and that at some point, there may be a rulemaking. Well, 
this is a 40-page document. This is the guidance document. To 
say it has no real impact on the ground for folks, I am just 
not buying it. I think it does have an impact.
    The president of the American Farm Bureau stated on April 
18, and I have a poster, he said ``The proper procedure for 
putting Federal policy in place is either by proposing formal 
rules after taking public comments into consideration or 
proposing legislation for Congress to consider. This current 
regulatory guidance effort for the Clean Water Act circumvents 
that process, implements controversial new policy and expands 
the Federal Government's regulatory reach without public input 
or Congress' authorization.''
    I agree with that statement by the president of the 
American Farm Bureau. This is not how major decisions that 
affect the lives of people all across this country should be 
made.
    I would hope that General Bostick, who is the 
Administration's nominee to head up the U.S. Army Corps of 
Engineers, would agree that ``guidance'' is not how we should 
be making major policy decisions. I would hope as the nominee 
moves through the confirmation process that we get more 
concrete assurances from this Administration as to exactly when 
a rulemaking on this issue will commence.
    I want to thank the Chair and look forward to the 
testimony. Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    So we will next go to Senator Carper.

STATEMENT OF HON. THOMAS CARPER, U.S. SENATOR FROM THE STATE OF 
                            DELAWARE

    Senator Carper. Thanks very much. Our witnesses, our 
nominees, Commissioner Ostendorff, Mr. Howorth, General 
Bostick, it is very nice to see you, General. Always glad when 
you can come to Delaware, thanks for doing that. We look 
forward to hearing your testimony and your response to our 
questions.
    Madam Chair and colleagues, I am impressed by the technical 
breadth and depth of each of these three nominees and the set 
of skills that they bring to the positions for which they have 
been nominated or renominated. As chairman of the Senate 
Subcommittee on Clean Air and Nuclear Safety, which oversees 
both the Tennessee Valley Authority and the Nuclear Regulatory 
Commission, I am especially happy to see us moving forward with 
Commissioner Ostendorff's and Mr. Howorth's nomination today.
    Over the years, along with other members of this committee, 
I have worked with the Nuclear Regulatory Commission to ensure 
that we establish a culture of safety in our U.S. nuclear 
energy industry. In no small part because of the hard work by 
the NRC commissioners and the NRC staff, we have not seen any 
direct, as Senator Alexander mentioned earlier, direct deaths 
from nuclear powerplant radiation exposure in this country in 
gosh, 50 years.
    However, the events that struck Japan, Alabama and recently 
Joplin, MO, are reminders that we are all vulnerable to 
unexpected disasters, whether they are an act of nature or a 
terrorist attack. While we cannot predict when or where the 
next major disaster will occur, we know that adequate 
preparation and response planning are vital if we are to 
minimize injury and death when it does happen. It is especially 
true for nuclear powerplants.
    While I am a proponent of clean energy, my top priority for 
nuclear power remains public safety. Under this committee's 
encouragement, the NRC is currently reviewing our domestic 
nuclear fleet to make sure that every precaution is being taken 
to safeguard the American people from a similar nuclear 
incident and we anxiously await their results.
    I expect and the public expects that the NRC must be a 
strong, independent and effective regulator, a regulator that 
acts firmly and decisively, a regulator that acts openly and 
transparently, a regulator that produces results and is worthy 
of the public's confidence. In sum, when it comes to domestic 
nuclear power, the NRC must ensure the Nation's health, safety 
and security and the protection of the environment as it 
pertains to nuclear power.
    Although Commissioner Ostendorff and I don't agree on every 
single issue, I might add I don't agree on every issue with my 
wife, but he has shown a commitment to safety and to make the 
NRC a very strong and impartial regulator. For that, we thank 
him. At a time when we have so many challenges in the nuclear 
industry, I hope we can quickly move forward on the nomination 
process for Commissioner Ostendorff and make sure that we have 
a fully complemented NRC.
    In the past few years, the TVA has also seen its fair share 
of challenges, as we know. Being a Federal corporation means 
higher responsibilities. A few years ago, TVA was not meeting 
them. Two years ago, I called on TVA's board of directors to 
change its culture: clean energy, conservation and transparency 
that are needed to be a priority, not an afterthought. I felt 
that TVA needed to be on the forefront of new, clean energy, 
and not a laggard.
    So far, I believe that TVA has stepped up to the plate and 
met that challenge. I look forward to at today's hearing to 
hearing how Mr. Howorth will help TVA continue on this path. We 
welcome you today.
    I believe all three of these nominees, Madam Chair, fill 
critical leadership vacancies that help provide a vital balance 
and strengthen the Nuclear Regulatory Commission, the Tennessee 
Valley Authority and the Army Corps of Engineers. I want to 
thank each of you for being here today and for your willingness 
to serve our country in these important roles.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Boozman.

STATEMENT OF HON. JOHN BOOZMAN, U.S. SENATOR FROM THE STATE OF 
                            ARKANSAS

    Senator Boozman. Thank you, Madam Chair and Ranking Member 
Inhofe, for having the hearing today.
    I want to thank the nominees for their history of service 
and their continued willingness to serve our country. You all 
have impressive backgrounds and credentials. Mr. Howorth, I 
have not had a chance to visit with you, but I appreciate your 
willingness to serve at TVA and look forward to reviewing your 
testimony.
    General Bostick, congratulations on your nomination. I 
appreciate your appearing before the committee. The Civil Works 
program of the Corps is so important to the Nation. If 
confirmed, your responsibilities in this new role will be 
great. The Corps has been asked to do more with less. I want to 
help the Corps become more efficient and effective. I will 
support providing the tools and resources the Corps needs to 
accomplish each mission. I look forward to reviewing your 
testimony.
    Commissioner Ostendorff, thank you for decades of service 
to the country. I am glad that President Obama has renominated 
you to continue your service on the Nuclear Regulatory 
Commission. I know that you have been confirmed by the Senate 
twice before to important positions, including to serve as 
Principal Deputy Administrator at the National Nuclear Security 
Administration. You served our country in uniform for 26 years. 
All the current Commissioners have strengths, but you are the 
only current Commissioner with real-world hands-on experience 
dealing with nuclear reactors. Your service on the six nuclear-
powered submarines and as the commanding officer of a nuclear 
attack submarine squadron with eight nuclear attack submarine 
provides you with a unique background.
    The Nuclear Regulatory Commission needs to operate at full 
strength with five members. This is especially true as the 
Commission conducts the review of safety at existing U.S. 
nuclear powerplants that has been ordered by President Obama. 
Based on your experience, background and record of service, I 
hope the Senate will move quickly on your nomination so that 
you can continue your important work.
    With that, I yield back.
    Senator Boxer. Thank you so much, Senator.
    So at this time, we will ask our honored nominees to take 
their seats together at the podium. We will start with Hon. 
William Ostendorff.
    Mr. Ostendorff, do you have any members of your family or 
friends you would like to ask to stand?
    Mr. Ostendorff. Madam Chair, unfortunately, none could be 
here today. My wife is administering special education 
standards of learning in the State of Virginia, so she could 
not attend. But I appreciate the invitation, thank you.
    Senator Boxer. Well, good for her. Go right ahead, sir.

  STATEMENT OF WILLIAM C. OSTENDORFF, NOMINATED BY PRESIDENT 
    OBAMA TO BE COMMISSIONER, NUCLEAR REGULATORY COMMISSION

    Mr. Ostendorff. Thank you, Madam Chair, Senator Inhofe and 
members of the committee. I appreciate the kind introduction 
earlier by Senator Webb. I am certainly grateful to President 
Obama for nominating me to a 5-year term on the Commission. If 
confirmed, I look forward to continuing my work with this 
committee and with the NRC.
    This is my third appearance before this committee. I am 
grateful for your leadership and oversight commitment to the 
NRC's mission.
    When I last appeared here in May 2010, I had been in office 
just over 1 month. Now I have 14 months under my belt, and an 
even greater appreciation for the mission of the NRC. It has 
been a true privilege to serve our country as a commissioner, 
and I hope to continue to have that opportunity after June 30.
    In the last 14 months, I have worked and closely with all 
my colleagues, Chairman Jaczko, Commissioners Svinicki, 
Apostolakis, and Magwood, to tackle the work we have before the 
Commission. My colleagues on the Commission bring a diverse set 
of experiences and knowledge to the table. I value and respect 
their insights.
    The Commission has been involved in a number of important 
issues related to nuclear safety and security over the last 
year. Together, we have accomplished a great deal. I have cast 
votes in well over 200 matters in the last 14 months as a 
commissioner.
    Throughout my tenure, I have done my best to adhere to the 
NRC's principles of good regulation: independence, openness, 
efficiency, clarity and reliability. I have also strived to get 
out frequently to visit our regulated facilities. Pursuant to 
my open door policy, I have met with people of all backgrounds 
and opinions, both those in favor of and those opposed to 
nuclear power. I have found that doing that enriches my 
perspective as a regulator.
    As this committee well knows, the events at Fukushima are 
tragic and significant. I am fully supportive of the NRC's task 
force the Commission approved on March 23 of this year. I am 
fully committed to systematic and methodical review of the 
lessons learned from Fukushima and how they may be applied to 
improve our nuclear safety regulation. I know that if we need 
to make changes to our regulatory framework as a result of this 
accident, we will.
    Madam Chair, Senator Inhofe, members of the committee, I 
appreciate the opportunity to be here today and I look froward 
to your questions. Thank you.
    [The prepared statement of Mr. Ostendorff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you very much.
    Mayor Howorth.

 STATEMENT OF RICHARD HOWORTH, NOMINATED BY PRESIDENT OBAMA TO 
    BE A MEMBER OF THE TENNESSEE VALLEY AUTHORITY BOARD OF 
                           DIRECTORS

    Mr. Howorth. Good morning, Chairman Boxer and Ranking 
Member Inhofe and distinguished members of the committee. I am 
honored to have been nominated by President Obama to serve on 
the board of directors of the Tennessee Valley Authority. I am 
also very grateful to Senators Cochran and Wicker for coming 
here this morning and expressing support. I appear humbly 
before you today.
    I also want to thank you for all of your welcoming comments 
and the graciousness you have extended to my family.
    Senator Boxer. Would you like to introduce them? Why don't 
you stand up.
    Mr. Howorth. My wife, Lisa, and Claire, my oldest child.
    Senator Boxer. That is very nice.
    Mr. Howorth. She came down on the train from New York.
    Senator Carper. Which is which? I am sorry.
    [Laughter.]
    Mr. Howorth. As one who has had a lifelong interest and 
stake in the progress of the region where I am from, 
Mississippi in particular, I must say that the TVA has been and 
remains a vitally important entity. It has a great track record 
of providing low-cost, efficient and reliable power to the many 
municipal and co-op power associations that serve as its 
distributors and has brought great benefits to ratepayers and 
economic development in our area.
    A recent example of that is the Blue Springs auto 
manufacturing site, which is 40 miles away from Oxford, where I 
live. Toyota is reportedly on track to begin producing its 
fuel-efficient Corolla model this fall, creating 2,000 new jobs 
in Mississippi. A key attraction to that site was the presence 
of TVA.
    As mayor of Oxford, the Oxford Electric Department is a 
municipal enterprise. I served as chairman of the authority 
that oversaw the department. Thus I am familiar with TVA as a 
municipal customer. As a member of the board of directors of 
the North Mississippi Industrial Development Association, I 
also had contact with TVA's economic development initiatives 
and their staff, whom I have found to be quite effective.
    I believe both my for-profit and public service experiences 
can contribute to the TVA board's strength. I started my own 
business 32 years ago, with $10,000 that Lisa and I had saved, 
combined with a $10,000 loan that I secured after three 
attempts to persuade the banker that I had a solid proposal. 
The business grew well over time, eventually reaching a point 
where I could delegate its management in order for me to have 
the time to lead a national trade association, and then later 
serve as mayor of Oxford, a full-time position.
    The experience of wearing three different leadership hats 
has taught me the necessity of healthy communication with 
customers or stakeholders or constituents, the proper distance 
a board member takes to a chief executive and staff of an 
organization, the importance of trust and respect among fellow 
board members, and indeed, within an entire organization, and 
the tremendous responsibilities and obligations a Government 
authority has to the general public.
    I am a big believer in planning, a key component of my 
mayoral administration and my trade association experience as 
well. Leadership in the trade association involved undergoing 
major industry and legal transitions, which would have proved 
disastrous without extensive strategic planning, an initiative 
that I chaired. With the city of Oxford, we created the city's 
first major comprehensive plan in 30 years, which paved the way 
for a robust annexation, historic preservation, major 
infrastructure expansion, the city's first sustainability 
committee, and its first public transit system.
    Oxford Electric Department also required attention, 
enhancing technical staff and bringing in a new superintendent 
who made both the field and the clerical sides of the 
department operate more efficiently. Those who know me at home 
I hope would tell you that I have a strong work ethic.
    If confirmed as a board member of the TVA I will be engaged 
in and committed to its ambition to be an industry leader for 
safety, technological innovation, low-cost reliable energy and 
environmental stewardship. As we face rising demand for energy 
against the backdrop of increasingly extreme challenges that 
exist in generating power, I am particularly eager in working 
to make the TVA, being the unique public entity that it is, a 
national leader in conservation.
    Thank you for your time. I look forward to your questions.
    [The prepared statement of Mr. Howorth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you so very much.
    Now, Lieutenant General Thomas P. Bostick. General, if you 
want to introduce anyone, feel free to do so.

STATEMENT OF LIEUTENANT GENERAL THOMAS P. BOSTICK, NOMINATED BY 
 PRESIDENT OBAMA TO BE CHIEF OF ENGINEERS/COMMANDING GENERAL, 
                  U.S. ARMY CORPS OF ENGINEERS

    General Bostick. Thank you, Madam Chairman, Ranking Member 
Inhofe and members of the committee. I am honored to appear 
before you today as the nominee to be Chief of Engineers and 
Commanding General of the U.S. Army Corps of Engineers.
    I want to thank the President, the Secretary of Defense and 
our Army leadership for this opportunity to continue serving 
this great Nation. I also join in the condolences for those 
affected by the tornadoes and the flooding throughout the 
country.
    It has been my privilege to serve the country in uniform 
for the past 33 years. The Bosticks are a typical Army family, 
engaged in military and community service. My wife, Renee, who 
could not be here today, is an elementary school principal in 
Arlington, and my son, Joshua is an undergraduate student in 
California.
    My father was an Army Master Sergeant and my father-in-law 
a Marine Corps Sergeant Major. So it has been an honor for all 
of us to serve the Nation.
    For the past 18 months, I have served as the Army's Deputy 
Chief of Staff for Personnel, responsible for 1.1 million 
soldiers and over 300,000 civilians. I had the opportunity to 
lead the Army's recruiting command for nearly 4 years, where 
our soldiers were the face of the U.S. Army all across America. 
I deployed with the First Cavalry Division and served with the 
Corps of Engineers in Iraq.
    I had several opportunities as a young officer to learn at 
the strategic level here in Washington, as executive officer to 
the Chief of Engineers during the 1993 floods that devastated 
much of the Midwest, as special assistant to the Secretary of 
Veterans Affairs, and as executive officer to the Chief of 
Staff of the U.S. Army. These diverse experiences have prepared 
me to lead one of our Nation's most vital organizations.
    If confirmed, I look forward to working with the Congress, 
the Administration, the Department of Defense, as well as State 
and local leaders, to continue executing the important civil 
works and military missions of the Corps of Engineers. The 
recent flooding throughout the Midwest, the tornadoes, all 
remind us of the vital need for the Corps of Engineers. The 
Corps must be ready to provide assistance to State and local 
governments in developing integrated water management 
strategies and reliable inland navigation systems. Our Nation's 
continued economic prosperity depends on these vital 
infrastructure investments.
    The Corps continually balances competing needs throughout 
the Nation. It has an excellent record of compliance with the 
National Environmental Policy Act, and other environmental 
laws. The Corps' overseas construction missions remain vital to 
our success in operational engagements across the world.
    I appreciate the opportunity to appear before you today and 
I look forward to answering your questions.
    [The prepared statement of General Bostick follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Carper [presiding]. General Bostick, thank you for 
your testimony, Mr. Howorth and Captain Ostendorff. Our Chair 
has had to leave the room to take a phone call from our 
Majority Leader. She will be back shortly, she has asked me to 
proceed. I will ask a few questions and then yield to Senator 
Inhofe.
    Mr. Ostendorff, you served a lot of years in the Navy. You 
are familiar with the idea of a shakedown cruise, on a new 
submarine or whatever, just going out there and taking it out 
for a spin, maybe for months. You have had a shakedown cruise 
with the Commission here. Let me just ask, first, how is it 
going?
    General Bostick. Senator, thank you for the question. I 
think things are going well. An independent regulatory 
commission that brings together five people with diverse 
backgrounds is a very different situation than one would have 
when I was captain of a nuclear-powered submarine or principal 
deputy at the NSA in a single leadership, single administrator 
role. An independent regulatory commission, by its very nature, 
I think has a more complex decision structure. I would say that 
my experience so far has been, I learn from my colleagues, I 
think I am a better commissioner for having talked to my fellow 
commissioners. Though we don't always agree on matters of 
policy or rulemaking or adjudications, I think we go into those 
decision steps better informed and better equipped by virtue of 
our dialogs. We meet every week, at least once a week, to talk 
to our colleagues on their viewpoints and matters.
    I would say that in spite of controversies that have been 
in the news with respect to high-level waste proceedings in 
Yucca Mountain, that we are getting a tremendous amount of work 
done in a very collegial manner.
    Senator Carper. Thanks. Madam Chair, would you like for me 
to yield back to you at this time?
    Senator Boxer [presiding]. No, no, you continue, and then 
we will go to Senator Inhofe, and then I will go after him.
    Senator Carper. All right, thanks so much.
    Speaking of Fukushima, Mr. Ostendorff, in your testimony 
you mentioned the NRC task force that was commissioned with 
reviewing our domestic nuclear fleet in light of the crisis of 
Japan. Do you have any insights into how that investigation is 
going that you might share with us? What do you think will be 
some of the main lessons we learn from Fukushima? Or do you 
think our domestic nuclear fleet might be vulnerable?
    Mr. Ostendorff. Yes, sir. The task force was commissioned 
on March 23, and that task force was to divide this effort into 
two pieces: one, a near-term, 90-day effort. We should receive 
the draft report of that 90- day effort in the middle of the 
month of July. Then a longer term 6-month effort to follow that 
90-day effort. We have had three commission public meetings on 
this topic since March 21.
    Some areas that that task force is looking at include the 
resilience of U.S. nuclear powerplants to disasters, whether it 
be an earthquake, a tsunami, hurricane, tornado, flooding. What 
happens at a nuclear powerplant when there is what is called a 
station blackout, which is the loss of all AC power, and what 
are the roles of emergency diesel generators that are backup 
power supplies, as well as direct current batteries. What are 
methods to reduce the buildup of any pressure in the 
containment.
    At Fukushima, there were significant hydrogen explosions in 
the containment buildings as a result of overheating of the 
fuel elements that caused hydrogen gas to buildup. So the task 
force is looking at what are the methods we have in this 
country to deal with that. I will note that in 1989 the 
Commission promulgated requirements to have hardened vents 
installed at our boiling water reactors to preclude a buildup 
of hydrogen gas that cannot be vented. That is just one 
example.
    I can't say at this point in time where this task force 
will head. We had a report just on May 12, an initial 30-day 
report, that there was nothing to suggest that currently we 
believe there are safety concerns at our existing facilities. 
But we fully well know that there will be a more in-depth look 
taken across those areas, as I just mentioned. We will take 
actions to enhance regulations, if appropriate.
    Senator Carper. Thank you. Mr. Howorth, could you critique 
Mr. Ostendorff's statement?
    Mr. Howorth. I agree with it.
    Senator Carper. All right, thanks very much. I thought you 
might.
    Mr. Howorth, as you and I discussed earlier this week, I 
think you know I am very interested in clean air, I think we 
all are. I would like to say that the cleanest, cheapest form 
of energy is the energy we never use. I was happy to see that 
you would like TVA to be a national leader in conservation. I 
applaud that. I just want to know if we have your assurance 
that if confirmed as a board member, you will push the TVA to 
become a leader in conservation, especially in the area of 
energy efficiency.
    Mr. Howorth. I think so, Senator. I don't want to describe 
myself as pushing anything when I am neither confirmed nor on 
the board yet. But yes, you know that is where certainly my 
interest and ambitions lie. I think that there is a lot we can 
do. TVA has a tremendous opportunity due to its model, with its 
customers, with its ratepayers, who own the place. There is a 
cooperative relationship that I believe, and an engaged 
relationship, that I believe can lead us to a lot of 
initiatives that aren't so easily accomplished elsewhere.
    Senator Carper. All right. Thanks so much. Madam Chair, 
thanks for allowing me to ask those questions. I will yield 
back to you and Senator Inhofe.
    Senator Boxer. Yes, Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Let me just really quickly, Commissioner Ostendorff, there 
have been some things in the publications about some discord 
among the members and so forth. Do you want to make any comment 
about that in terms of the congeniality of what is happening in 
the NRC?
    Mr. Ostendorff. Senator Inhofe, I would be very pleased to 
comment on that. I tried to address some of that in my response 
to Senator Carper's question as to how things are going. But 
let me delve a little bit deeper into that.
    I have publicly disagreed with some of my commissioners on 
certain topics at different times in an attempt to be very 
transparent as to what my views are. I have responsibilities to 
the Congress, the American taxpayers to communicate with them, 
where is Ostendorff on this issue. I tried to do that in a 
professional, collegial manner that has clearly stated my 
position, at the same time being respectful that others on the 
Commission have disagreed with me.
    Senator Inhofe. Yes, and that is really enough said on 
that. I just want to make sure, because it is my impression, I 
know where you stand on issues, I know where most of the rest 
of them do. That is what these commissions are all about, each 
one to get out there, if you all were rubber stamps, we might 
as well not have a commission.
    Mr. Ostendorff. Exactly.
    Senator Inhofe. So I appreciate that.
    Let me mention to you, General Bostick, we have a concern 
right now for a WRDA bill. We are concerned about that. The 
Chairman has talked about that, I have talked about that. We 
are concerned on that. There is one area there that I would 
like to, General Bostick, address. I see that my colleague John 
Boozman has had to leave, but he was here a short time ago.
    We have been concerned, I think it was back in 2005 that we 
actually did the 12-foot channel for the Kerr-McClellan 
Waterway. It is about 90 percent 12-foot, but it is 10 percent 
9-foot. Now, we know what kind of result that is, and that is 
that it cuts back about 40 percent of the capacity that we can 
have. I would like to personally invite you to come out and see 
this and to understand the problem that we have, talk to some 
of our importers and exporters as to what it means to them.
    Do you have any comment to make about that? Where would 
that be on your priority list to try to complete that as it was 
originally intended and was authorized just a few years ago to 
be a 12-foot channel?
    General Bostick. Senator, thank you. First I will say that 
it is an honor for me to be nominated for this position, and I 
look forward to visiting many locations. It would be a priority 
for me to visit, to make an assessment and then with the help 
of the Corps, the Administration and the Congress, decide what 
the right priorities ought to be. I think all of these 
navigation and port issues that have funding issues are 
something that we as a Nation need to look at. The 
infrastructure has been allowed not to be maintained at the 
level for which it was designed, and much of that is understood 
by where we are with funding.
    Senator Inhofe. Yes, that is happening, that is also 
happening to the locks and dams. We know the problems that 
exist out there. I am sure Senator Boozman and I would both 
like to have you look at this in terms of priorities.
    There is one other thing that is of a local nature. Our 
Arkansas River Corridor master plan, while the WRDA bill 2007 
had $50 million, authorized $50 million to carry out an 
ecosystem restoration, flood damage and a few other things, 
nothing has happened on that. There are a lot of people in my 
area, in the Tulsa area, that are willing to come out there and 
front this thing and start funding, putting some of the funding 
in. The question they always ask me, if this happens, can the 
Corps assure us that local sponsors will get some kind of a 
credit.
    Have you thought very much about that approach to getting 
some of these things done that are currently just hanging out 
there?
    General Bostick. Senator, I have not looked at the details 
of that. But I have thought about my approach in entering the 
Corps. If confirmed, one of the first things I would do is go 
out, visit and make assessments of these critical projects, 
talk to the local government entities.
    Senator Inhofe. Yes, I can set that up, too. So we will do 
that maybe in one trip handle the Arkansas end of it and then 
handle the Oklahoma end.
    General Bostick. I would be delighted to visit.
    Senator Inhofe. Good. We look forward to that.
    Thank you, Madam Chairman.
    Senator Boxer. Surely. Gentlemen, before I ask you your 
questions, I have to ask you just the boilerplate questions we 
have to do, so we make sure that you can move forward. I am 
going to go down the line and ask you three questions.
    Do you agree, if confirmed by the Senate, to appear before 
this committee or designated members of this committee and 
other appropriate committees of the Congress and provide 
information, subject to appropriate and necessary security 
protection, with respect to your responsibilities?
    Mr. Ostendorff. I do.
    Mr. Howorth. I do.
    General Bostick. I do.
    Senator Boxer. OK. No. 2, do you agree to ensure that 
testimony, briefings, documents and electronic and other forms 
of communication are provided to this committee and its staff 
and other appropriate committees in a timely manner?
    Mr. Ostendorff. I do.
    Mr. Howorth. Yes.
    General Bostick. Yes.
    Senator Boxer. All right. Finally, do you know of any 
matters which you may or may or have disclosed that might place 
you in any conflict of interest if you are confirmed?
    Mr. Ostendorff. No.
    Mr. Howorth. No.
    General Bostick. No.
    Senator Boxer. All right. You each get an A plus on these. 
Very good.
    So I will start my time now. Mr. Ostendorff, I understand 
that you disagreed with Chairman Jaczko on his decision to use 
high-level waste disposal funds for an orderly closure of the 
Yucca Mountain license review under the short-term continuing 
resolution of 2011. Do you still disagree with the Chairman's 
interpretation of NRC's high-level waste budget, now that we 
have a final continuing resolution that is consistent with the 
President's fiscal year 2011 funding request for Yucca 
Mountain?
    Mr. Ostendorff. Madam Chair, that circumstance, if I can 
just expand upon this a bit.
    Senator Boxer. Go ahead, yes, of course.
    Mr. Ostendorff. Certainly back in the first of October 
2010, when the continuing resolution for Fiscal Year 2011 came 
out, there was no explicit direction from Congress on what to 
do with the high-level waste activities. At that point in time, 
I did disagree with Chairman Jaczko. We had a very collegial 
discussion, quite frankly, twice on that first day of October 
to discuss my disagreement, which led me to initiate what is 
called a commission memorandum, in accordance with our internal 
commission procedures.
    I issued that to suggest this is a policy matter for my 
fellow commissioners. I did not receive majority support. I 
respected that my position did not prevail.
    As we have gone down this path, for many months, until last 
month, we had the uncertainty of the CR. Based on the CR that 
we received in the month of April, I understand that is 
Congress' intent and I do not have any objection to the 
direction the program has taken.
    Senator Boxer. That is a good answer for me. Thank you.
    Mr. Ostendorff, the current situation in Japan has 
indicated that damage to the reactors at Fukushima is worst 
than first thought. It appears that fuel rods in units 1, 2 and 
3 all suffered partial meltdowns in the early days of the 
disaster. What is your latest understanding of the situation 
there? Do you believe the Japanese will be able to meet their 
goal of reaching cold shutdown of all reactors at the 
Fukushima-Daiichi nuclear plant within 6 to 9 months?
    This is just asking your opinion, sort of friend to friend.
    Mr. Ostendorff. Sure.
    Senator Boxer. Because I don't know when I listen how 
accurate they are being, or if they are being too optimistic.
    Mr. Ostendorff. Yes, ma'am. The information flow has 
certainly changed over X number of weeks since March 11. My 
understanding, the best information we have today is that unit 
1 has about 55 percent fuel damage, core melt. Unit 2, about 30 
percent, unit 3, about 35 percent. Those percentages may change 
during the final lessons learned and the data analysis.
    Currently, there is water being provided to keep the fuel 
rods in the three reactor units, 1, 2 and 3, covered. The 
temperature is stable. There are concerns and challenges ahead 
with respect to where the water that is being used to provide 
that cooling, where does that water go.
    Because of the problem with respect to discharging that 
water into a tank, these tanks are full. There are private 
sector efforts underway and being planned right now to provide 
filtering and a contamination cleanup capability that is not 
currently in place. That will be critical to ensuring the long-
term stable cooling of the facility while protecting the 
environment.
    There have been leaks of radioactive contaminated water 
into the Pacific Ocean. That is of concern.
    Senator Boxer. Just because my time is running out, do you 
think they will be able to achieve this cold shutdown in 6 to 9 
months? What is your opinion? On a scale of 1 to 10, 10 being 
for sure they can do it, what is your sense of it? I won't hold 
you to anything.
    Mr. Ostendorff. Sure, I understand. I am between a six and 
a seven.
    Senator Boxer. OK, thank you, that is fair.
    There has been a series of articles in the New York Times 
about the NRC. One of them basically poses the question, is the 
NRC too close to industry? It pointed to a tendency of plant 
licensees to defer maintenance until serious safety problems 
develop, and the NRC's reluctance to establish new requirements 
on licenses.
    Do you think this is a fair criticism? Are there things the 
NRC could do better to give us more confidence? I just speak 
for myself, other people may not share this, but I do have some 
of these annoying questions. I wondered how you felt about it.
    Mr. Ostendorff. Madam Chair, I would answer as follows. I 
hear that criticism frequently. I personally have an open door 
policy, if anybody from industry wants to meet with me, I meet 
with them. If a group from GreenPeace, Union for Concerned 
Scientists or an anti-nuclear group wants to meet with me, I 
meet with them. I think it is important as a regulator to have 
all the different perspectives that are out there. I do my very 
best to receive those.
    With respect to, are we too close to industry, I personally 
don't think we are. I am very confident in the safety and 
security regulations that we have. I am very confident that we 
are very open with the American public as to how we regulate. 
At times, I think we could improve our communications ability 
with the American public. That is an area I am committed to 
working on.
    Senator Boxer. Good. Excellent. Thank you very much.
    So now I will turn it over to Senator Vitter for 10 
minutes.
    Senator Vitter. Thanks, Madam Chair, and thanks to all of 
our nominees for all of your service.
    Because of the Corps of Engineers' significance to the 
country and Louisiana, General, I am going to focus on the 
Corps. We will see how time goes. But I certainly don't want to 
minimize the extreme importance of the other two roles as well.
    General, this is a statement, then I will get on to 
questions. I have one general concern about your background, 
which is, simply, while you are clearly a very smart, very 
well-qualified engineer, you don't have direct civil work 
experience. Is that correct, or am I missing something?
    General Bostick. Sir, I have not worked directly on Civil 
Works projects.
    Senator Vitter. OK. That shouldn't disqualify you, but I 
will note, since 1900, of the 34 distinguished folks in this 
position, only one other did not have that direct civil work 
experience. I think impartial observers would not rate that 
particular leader high in the Corps' history. So I just make 
that note and urge you, if you are confirmed, to fill that void 
with sort of intense education.
    A lot of what I am concerned about again comes out of our 
Louisiana experience. In particular, Hurricane Katrina, which 
is one of the two biggest events in the Corps' history, bar 
none. The other one being the great flood of 1927. Have you had 
an opportunity to visit the greater New Orleans area to 
understand what happened during Hurricane Katrina and to see 
first-hand the enormously important work that has been done 
since then?
    General Bostick. Senator, I would first like to followup on 
the earlier question about experience in civil works. Even 
though I have not directly worked on Civil Works projects, I 
served as the Executive Officer to the Chief of Engineers 
during the 1993 floods. General Art Williams was the Chief, and 
I helped him as we moved around the country during the Midwest 
floods, which were very damaging, and we lost 47 lives across 
the country and a lot of money in damages.
    So I have that experience, and I have worked at high 
levels; I understand Congress and I understand the local 
population.
    As to your question about visiting New Orleans, I have been 
down there. As I mentioned, I was the head of Recruiting 
Command between 2005 and 2009. I came out of Iraq and one of my 
first visits after becoming the head of recruiting was to visit 
our recruiters down in the post-Katrina area. I saw the initial 
aftermath of the damage there, and saw the great work of the 
Corps and the local community and the country coming together 
to try to help the people in the local area.
    I have not visited since to see the great progress that 
they have made.
    Senator Vitter. Great. A big source of the flooding of the 
city were three what we call outfall canals that go into the 
heart of the city. Are you familiar with the dynamics of what 
caused those breaches?
    General Bostick. I am not familiar with the specifics of 
that. I have read up on it and I know that there were some 
concerns on design, there were some concerns on weather 
patterns, there were some concerns on the magnitude of the 
storm that hit during that time.
    Senator Vitter. Well, I guess I am particularly focused on 
the fact it has been concluded that the fundamental cause of 
those breaches were design flaws, not a storm that was greater 
than what it was designed for, but design flaws under Corps 
projects. Are you familiar with that?
    General Bostick. I am familiar with the concern that it was 
a design flaw. I have not reviewed the details of the after-
action review of that project to see how much of it was design 
and how much of it was a combination of other factors. But if 
confirmed, I think one of the great strengths of our military 
is that we take a look at ourselves, and we are very critical 
about where we made mistakes and what we are going to do to try 
to fix it in the future.
    Senator Vitter. Great.
    I would certainly encourage you to do that before and after 
confirmation. Again, I just want to emphasize, this is not a 
concern that it was a design flaw, this is a conclusion that I 
think is universally shared, that it was a design flaw.
    With that sort of history in mind, do you have an opinion 
about the most important two or three lessons the Corps has or 
should take away from the whole Katrina experience?
    General Bostick. As I look at it from an outside 
perspective, first, I think the country responded, after some 
initial setbacks, very well in terms of the Congress providing 
the authority and the appropriations for the State and the 
Government and the Corps of Engineers to react very quickly. 
Although I haven't visited that location, I know that a great 
amount of work has occurred.
    So this country can do anything, and I think the Corps and 
the local community can come together and do anything. The key 
is to have a strong communications plan, a strong plan in how 
you react to disasters. I think looking forward to the future, 
one of the key takeaways for me is our response: how do we 
respond, both with FEMA, with the Corps and as a country to 
disasters. So that is one.
    The second is that I think that our infrastructure across 
the country, we need to look at how we prepare that 
infrastructure for the long haul. Funding has been a challenge, 
not only in the country but specifically, I think, in the Corps 
and some of the inland waterways that we are responsible to 
protect. So I think in balancing priorities, as we look at a 
disaster like Katrina, we as a Nation have to decide where the 
infrastructure development and maintenance for the future will 
take the country. Most of the money in the Corp, currently, as 
I understand it, is dedicated toward operation and maintenance. 
There are very few new projects, although some are needed, 
there are very few that can be paid for given the current 
funding constraints.
    Senator Vitter. Let me encourage you to think about lessons 
that we need to learn, including within the structure and 
bureaucracy of the Corps, because I think there are many 
lessons we still need to learn and incorporate.
    Let me also note a military lesson from history, which is, 
you always need to prepare for the next war, not the last war. 
I am concerned that we are responding very well after the fact 
to Katrina. But my concern is, Katrina was the last war, the 
last hurricane. Almost by definition, it is not going to be the 
next one. I think we need to look more fully at other scenarios 
and what the next one could be. Because there are plenty of 
similar vulnerabilities out there that were laid bare by 
Katrina.
    Certainly in this process, before, and if you are 
confirmed, after confirmation, I would really urge you to visit 
the area and look directly at both what happened in the past 
and the ongoing work there. Thank you very much.
    General Bostick. Thank you, sir.
    Senator Boxer. Thank you, Senator.
    I apologize, Senator Alexander, according to arrival, you 
were supposed to get that opportunity. Gracious Senator Cardin 
said, please, go right ahead.
    Senator Alexander. Well, I don't want to hold up Senator 
Cardin.
    Senator Boxer. No, he said to go on.
    Senator Alexander. Are you sure? All right. Thank you for 
your courtesy.
    Mr. Howorth, do you agree with the decision TVA recently 
made to close some coal plants and put pollution control 
equipment on all the remaining coal plants by 2020?
    Mr. Howorth. Essentially, yes. As I understand it, that was 
part of the EPA settlement. So obviously, it seemed like the 
right decision there. Also from what I understand, those plants 
are aging. Yes.
    Senator Alexander. Do you agree with TVA's stated goal to 
lead the country in nuclear power?
    Mr. Howorth. I know that that is a big part of the 
integrated resource plan, which to me appears to be an 
extremely well-considered plan. With the closing of the coal 
plants, there is going to have to be energy generated 
elsewhere. It seems that nuclear is where that should be.
    Senator Alexander. One of the things that astonishes me is 
that we are worried about $4 gasoline, but we have a resource 
sitting over here that is not oil that would power 40 percent 
of our cars and trucks, namely, all the electricity we have at 
night. With your background in local power and now about to be 
on the board, can you think of ways to create a better 
environment for electric cars and trucks in the TVA region?
    Mr. Howorth. I think that what you have described is one of 
many projects that could be done. If we perhaps, I don't know, 
because I haven't really gotten into this and discussed it with 
the existing board, but I hope that we are taking every measure 
toward conservation and efficiency before generating, trying to 
generate more, just more power and using off-peak capacity, do 
the sorts of things with electric cars, like you mentioned.
    Senator Alexander. Thank you.
    Mr. Ostendorff, you have gone twice in the last year to the 
only reactor being built in the United States today at Watts 
Bar. I was there when you were there a month or so ago. One 
reactor was operating; another one was being built. Based on 
what you have seen in those two visits, is the reactor being 
operated in a safe manner, and is the new reactor being built 
on time and on schedule?
    Mr. Ostendorff. Senator, I would say yes to both questions. 
I think the Watts Bar Unit 1 operation is being done safely and 
properly. That is the assessment of our NRC resident inspectors 
and our oversight team.
    With respect to the construction of Unit 2, I think that is 
proceeding in a professional manner. I am not aware of there 
being any concerns from our staff as to the proper quality 
assurance or soundness of the construction currently underway.
    Senator Alexander. Thank you.
    Madam Chair, I notice you are planning a nuclear oversight 
hearing next month. Senator Carper had a good hearing some time 
ago with his subcommittee. I would like to suggest we have more 
hearings on oversight of nuclear power. We have two main 
objectives here. One is to begin to build nuclear powerplants. 
Because at least half the ones we have are going to wear out 
before very long. We need new ones for that purpose, and to 
expand.
    Second is to make sure they are operated safely. I think 
the more people understand and hear about nuclear power, the 
more confidence they have in them or the more likely we are to 
correct mistakes that are being made.
    So I think hauling the Nuclear Regulatory Commission up 
here once a quarter before at least a subcommittee might be a 
useful way to move us toward a nuclear plant construction 
program and to convince Americans and ensure ourselves that 
they are being operated safely.
    One last question, General Bostick, and I will make a 
statement rather than a question. I noticed committee members 
are arranging your travel schedule. I will be glad to get in 
line for that, because I would like for you to come to 
Chattanooga and see the Chickamauga Lock, which if it closes, 
as it will do if it is not replaced, will put 100,000 trucks on 
I-75, and will seriously interfere with cargo shipments to not 
only TVA and Oakridge, but to the nuclear weapons compound at 
Y12.
    So what I would ask you to do is, one, consider visiting 
Chickamauga Lock; two, consider whether it is a new start or 
not. We think it is not a new start, since a coffin dam is 
already built. Three, consider the security impacts of the 
traffic that is moving up the Tennessee River to Oakridge 
National Laboratory and the Y12 nuclear compound.
    Then finally, I hope you and your associates will look at 
the decision last year by the court, it turned down a plan from 
the industry to tax themselves to put money in the Inland Water 
Trust Fund to build projects like nuclear, like Chickamauga 
Lock, why you turned that down, and if you turned it down, what 
your substitute is. Right now, all the money is being spent on 
a lock in Kentucky on which we have already spent $1.6 billion, 
they say we are going to spend $3 billion, there is no money 
for anything else.
    So the industry is willing to tax itself to provide money 
for Chickamauga and other places. What is your plan?
    Thank you, Madam Chairman, for your courtesy. Thank you, 
Senator Cardin, for yours.
    Senator Boxer. Absolutely, thank you very much.
    Senator Cardin.
    Senator Cardin. Once again, let me thank all three of our 
nominees for their willingness to continue in public service.
    To General Bostick, I want to concentrate a little bit. Not 
only do I want to get on your travel schedule, I want to get on 
your travel schedule early.
    [Laughter.]
    Senator Cardin. I have the honor of representing Maryland. 
That means I am close by. It is very easy to get to where I 
want you to get to.
    So I won't take any excuses.
    General Bostick. I look forward to joining you, Senator.
    Senator Cardin. Thank you. I'll take that as a commitment.
    General, I want to talk about the Chesapeake Bay, I want to 
talk about Poplar Island, which we are very proud of. The 
Federal Government has made an investment in Poplar Island 
which is the site of a lot of dredged material, but also an 
environmental restorationsite. Poplar Island used to be an 
inhabited island. It is disappearing within the Chesapeake Bay, 
and with it a lot of its environmental issues of protection and 
diversity, et cetera. The restoration project has returned 
Poplar Island to a major asset for the Chesapeake Bay and our 
environment, and also for our economy, because it is a site 
where we have placed a lot of dredged material.
    The next one onsite will be Mid Bay. Mid Bay, very similar 
to Poplar Island, is a series of islands that are disappearing 
as a result of several reasons. There is the water elevation as 
well as the currents, et cetera.
    Now, the good news for us in regard to Mid Bay is that the 
2009 Chief's report was favorable. The 2009 Chief's report 
indicated that there is substantial environmental benefits and 
recommend the project go forward. So we have crossed that 
hurdle.
    My question to you will be, how do we get the funding for 
this project? Will the Administration be recommending funding 
to move forward with Mid Bay and supporting efforts in Congress 
to authorize it in the next water legislation? If you are 
prepared to answer that, I would welcome that. If you need to 
get back to me, I will accept that. But I need to know your 
position as to moving forward with Mid Bay.
    General Bostick. Senator, I would be happy to get back with 
you on the specifics of Mid Bay. In general, I would say that 
because of the difficulty with funding across the Nation, one 
of the principal duties I will have upon taking the Chief of 
Engineer position, if confirmed, is to look at the priorities 
and to review the funding situation on all of these projects, 
and then to work with the Administration, to work with Congress 
and work with the States to make sure we are making the right 
decisions, the best decisions for all parties involved. I am 
committed to looking at Mid Bay specifically, and then to come 
back to you with an answer.
    Senator Cardin. I thank you for that.
    Let me just underscore this. Keeping our channels properly 
dredged is absolutely vital to our economy, as a Nation. Many 
jobs depend upon our ports being open. Baltimore is one of the 
largest ports on the east coast of the United States. We have 
many other projects that are involved along Maryland channels. 
It is vital.
    If we don't plan ahead and have sites for dredged materials 
that are economically viable, it will jeopardize the economy of 
our region and our Nation. So my only point for emphasizing 
this, it has gone through the process. It has gotten a 
favorable report. We are ready to move forward. I understand 
funding is tight.
    There have been some funds already made available for Mid 
Bay. The Administration has made some funds available. We are 
going to be looking to you to set the priorities, we understand 
that. But I just urge you to understand how critically 
important this project is to our entire region.
    General Bostick. Sir, absolutely, you have my commitment. I 
understand the importance and I will look at the priorities and 
see the funding and come back to you with an assessment.
    Senator Cardin. I look forward to visiting with you to show 
you first-hand the success of Poplar Island and the future site 
at Mid Bay.
    I want to just ask one more question of you, and that is, 
in 2007, Congress established the National Water Resources 
Planning Policy to ensure our Nation's water resources projects 
both are economic, to encourage both economic Development and 
protect our environment. As you know, the Council for 
Environmental Quality is in the process of modernizing the 
economic environmental principles and guidelines, the P&Gs.
    We are going to seek your input as to how you are working 
with this process to make sure that we do protect our Nation's 
waters. A lot of our concern is just economic, but also the 
environmental risks involved. I don't have time, because of the 
limited amount of time we have today, but I would like your 
input as to how you intend to operate to make sure that we 
protect our environment as well, moving forward with the 
critically important projects.
    General Bostick. Sir, I think it is very important. As I 
said in my opening comments, I think the Corps has been a good 
environmental steward while balancing the importance of the 
inland navigation and the ports. I will continue to reinforce 
that, if confirmed.
    Senator Cardin. Thank you.
    Senator Boxer. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Madam Chairman.
    I thank all of you, congratulations on being nominated. I 
am sure each of you will be able to move forward, hopefully 
with not too much delay.
    General Bostick, in your response to your questions and 
after our conversation with you, I am a little uneasy, in that 
you have not been connected to the Corps and its work for some 
time. Your responses are, I am not familiar with that 
particular contract or background to this matter. These are 
matter, another question, I would inquire about and consider 
prior to making any decisions. Another answer, I understand the 
Corps must operate on all of its projects in a manner that 
fulfills their authorized purposes. I am not familiar with the 
shoreline management plan for Lake Eufala.
    Well, I understand that, and I understand that you can be a 
fine leader of the Corps. But as you can tell from the 
questions, Senator Vitter and Senator Cardin and others, these 
matters are often very tough decisions that require your 
attention and ultimately will fall in your lap to make those 
decisions. They have a lot of history behind them and with 
regard particularly, as you and I discussed, and I won't go 
into it today, what has come to be known as the water wars 
between Alabama, Georgia and Florida, over the flow of rivers 
that come into Alabama, the headwaters of which are in Georgia.
    I guess I will just ask you, are you committed to following 
the law? Will you persist with rewriting the manuals for the 
Corps, if that is not consistent with court decisions and law 
and contracts that the Corps has?
    General Bostick. Sir, first let me say that I regret that I 
could not answer your questions more specifically, especially 
since we had a chance to chat in your office. But given that I 
am the G1 of the Army, it was difficult for me, not being 
confirmed, to work on the specifics of those questions with the 
Corps. I assure you that if confirmed, one of my first 
priorities will be to look into the details, and then come back 
and talk to you.
    Senator Sessions. Well, what I would like is a commitment, 
if you would, that you will comply with the law, existing 
binding contracts of the Corps and the court decisions relevant 
to the situation.
    General Bostick. Sir, absolutely, you have my commitment 
that we will comply with the law.
    Senator Sessions. Well, the Corps has been saying they are, 
but they I think eventually had to be reversed by the court of 
appeals court. I thank you for that, and I think that is 
probably all I can ask you at this time and insist on. But it 
is real important. Our Governor and the Governors of Georgia 
and Florida have not been able to reach an agreement. You and I 
agree the best thing would be an agreement reached by those 
Governors.
    But it is an important issue and they have not been able 
to. They just have not. I hope that they can. That would really 
be a helpful thing.
    Mr. Ostendorff, thank you for your leadership on the panel. 
I do believe nuclear energy has a real part to play in clean 
energy for the future, clean and economical. It is all-
American. It keeps the costs at a reasonable level. That helps 
economic growth. It is all-American, basically, creates jobs in 
America. It is not imported energy. It also emits no pollutants 
into the atmosphere.
    So your position is important. We understand safety is 
first. But if the NRC, through inaction or not paying 
sufficient attention to these questions, delays legitimate 
progress for plants, it can drive up costs significantly and 
take a program, a nuclear power project and make it from viable 
to not viable. Would you agree with that?
    Mr. Ostendorff. We have an obligation to professionally and 
in a disciplined manner move through our license applications. 
I think we are doing that now. I agree that we cannot afford to 
not pay close attention to how our process is working.
    Senator Sessions. I hope that you will have an opportunity 
to visit the Bellefonte Plant in North Alabama. One of the 
reactors was 60 percent completed; the other 80 percent 
completed 30 years ago. It was the most modern plant in the 
country at the time. TVA, after they finished their Watts Bar 
Plant in Tennessee, I think will be looking forward to going 
forward there with that. It has been on the drawing board for 
some time.
    So to the extent to which the Nuclear Regulatory Commission 
can do its evaluation and be prepared and move promptly on 
that, I think it would help us economically in the region and 
environmentally.
    Mr. Howorth, one of the projects, one of the plans for 
reducing coal-fired plants--is my time up?
    Senator Boxer. It is.
    Senator Sessions. OK, thank you.
    Senator Boxer. If you want to stay for a second round, I am 
going to do one.
    Senator Sessions. I understand that, fine. Thank you. I 
enjoyed the opportunity to talk with you yesterday.
    Senator Boxer. Thank you very much, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Madam Chairman, we have to be careful 
with our friend from Alabama, Senator Sessions, inviting him to 
a second round. It could be something of significance.
    [Laughter.]
    Senator Sessions. Thank you, no. This day I have to go, 
Senator Lautenberg. So I appreciate the courtesy.
    Senator Lautenberg. Thanks very much.
    Madam Chairman, we have these outstanding candidates here 
and each one's contribution is going to be so meaningful in our 
country. General, you in particular, you are very popular here 
today. We have all invited you over and to come in early and 
stay long. But come and see us as quickly as you can. The 
popularity is serious, because the Corps is such an important 
element in our society.
    But Madam Chairman, there is something I don't understand. 
Two and two doesn't make four. This is about the only place, 
and that is, we get requests from everybody here, and we are 
delighted to have General Bostick here. But when it comes to 
the budget, I don't know that we get the same requests for 
funding when we are preparing budgets as we do when the budgets 
are in place, and when we look at a $270 million cut in the 
Corps funding, and everybody again, General Bostick, would love 
to see you in our States. I am one of those as well.
    But it is just kind of an anomaly here that we can't do the 
arithmetic at the same time we are doing the requests.
    Mr. Ostendorff, I have enjoyed our conversations. There are 
many nuclear plants in the United States that use the same Mark 
I design as the one in Japan, including two reactors in New 
Jersey. Now, as Chairman Jaczko has said, modifications to the 
design in the United States would improve the safety of U.S. 
reactors.
    But now it appears that the Japanese plant had made 
modifications like the ones made at plants in the United 
States. If those modifications could not prevent the Japanese 
accident, how do we know our plants are not similarly 
vulnerable?
    Mr. Ostendorff. Senator Lautenberg, I appreciate the 
question. I would offer that your specific question is one that 
our ongoing Fukushima task force is looking at right now. We 
had, as Chairman Jaczko has told this committee, we had the 
hardened vent modifications installed in the late 1980's, in 
the United States, for these BWR Mark I reactors. We are trying 
to learn more about the modes of failure at Fukushima as to 
exactly what happened and why could they not operate these 
vents. I don't have an answer for that today, but I assure you, 
that is a key part of the task force.
    Senator Lautenberg. Thank you. The NRC requires evacuation 
plans only for areas within 10 miles of a plant. But the U.S. 
Government warned Americans in Japan to stay at least 50 miles 
away from the damaged reactors there. Would it make sense to 
require evacuation plans to address the same distance around 
U.S. facilities as was recommended in Japan?
    Mr. Ostendorff. Similar to the event question, this 
emergency planning, emergency preparedness issue you are 
raising, Senator Lautenberg, is also being looked at by the 
task force. I will tell you that although I was not part of the 
direct decisionmaking on that recommendation for Fukushima, I 
can tell you it is my understanding that there were perhaps 
four factors that led to the 50-mile recommendation in Japan. 
No. 1 was lack of information, No. 2 was concerns on the 
accuracy of information that was provided, No. 3 was the fact 
there were three reactors that had issues at multiple reactor 
sites, as opposed to single reactor units that our 10-mile 
policy is based on. No. 4 was tragically the tsunami that 
killed 25,000 people had also caused significant disruption to 
communications infrastructure that lessened our confidence in 
the ability of the Japanese to deal with certain aspects 
because of the damage.
    I know that our task force is looking at this. We have had 
a commission meeting on this topic recently. I think we will 
look forward to getting back to this committee on where our 
recommendations are.
    Senator Lautenberg. We are anxious to hear from you as soon 
as that can be done.
    General Bostick, the Passaic Snake River Basin in New 
Jersey frequently floods and has received five Federal disaster 
declarations since 1990. The State, local governments and the 
courts have set the framework for a long-term solution which 
would cost the Corps approximately $7.5 million to complete the 
reevaluation study.
    Now, I would like to know if this confirmation goes as we 
expect that you will commit to work with me and our State to 
find a solution to the flooding problems in the Snake River 
Basin.
    General Bostick. Senator, thank you. You do have my 
commitment that I will visit your great State, along with the 
others. I spend most of my life in the Pentagon, so it looks 
like if confirmed, I will do a lot of traveling. I will visit 
you and I will look at this specific project. I don't have the 
details of it now, but rest assured I will look at it.
    Senator Lautenberg. Mr. Howorth, TVA has a Federal mandate 
to provide low-cost, reliable electricity. What role should TVA 
play in protecting the environment and public health from 
powerplant emissions?
    Mr. Howorth. As a public entity, I think it has a very 
great responsibility to play that role in terms of ensuring 
that we are not polluting, we are not sending pollution 
contaminants into the atmosphere or that our nuclear plants are 
safe and secure. If it must be affordable, then we have to be 
efficient in production and use.
    I think it is a role that TVA generally has satisfied over 
the years and I believe will continue to.
    Senator Lautenberg. Madam Chairman, since we have been here 
quite a while, I would like to ask one more question. That is, 
what is the composition of the generating components of the 
TVA? Where does the energy come from?
    Mr. Howorth. I believe it is about 50 percent coal, 40 
percent nuclear, 8 percent----
    Senator Lautenberg. Fifty percent coal?
    Mr. Howorth. Right.
    Senator Lautenberg. Forty percent?
    Mr. Howorth. Nuclear. Eight percent hydro, 2 percent other.
    Senator Lautenberg. That is close enough. Madam Chairman, 
one of the problems that we worked so hard here, and that you 
are so leaderly in, and that is the question of the 
environment, how do we protect our families from pollution in 
the air? I would like to submit a question now for review by 
Mr. Howorth after confirmation as to what we do to minimize the 
pollution that comes from 50 percent of the coal plants that 
produce that power.
    Senator Boxer. We have a situation where Senator Paul is 
going to object to any committees meeting beyond noon. That is 
why I am trying to wrap this up.
    I want to say, just piggy-backing on Senator Lautenberg's 
question to you, Mr. Howorth, I want you to know that in the 
original Act, which I suggest you look at, because it is 
interesting, the original Act that was written setting up the 
TVA, it says, ``shall affirm support for the objectives and 
missions of the corporation, including being a national leader 
in technological innovation, low-cost power and environmental 
stewardship.'' It doesn't say one or the other.
    So I think the answer is if you don't do environmental 
stewardship, then you are breaking the law, not you, the TVA. 
So let's be clear: we have to do that, you have to do that, you 
and your fellow board members, commissioners.
    I would say this. EPA, and you alluded to this, just 
settled with TVA. They said that their settlement in terms of 
North Carolina air pollution from coal-fired powerplants, that 
that settlement will prevent 3,000 deaths, 21,000 cases of 
asthma, $27 billion in health care costs each year, and it 
includes $315 million in clean energy projects. I laud that 
settlement.
    But I just ask you rhetorically, you don't have to respond, 
you are just headed over there, it shouldn't have taken a 
lawsuit. What is going on with TVA? You should be a leader. I 
just worry about it, because I don't see it happening. I take a 
little responsibility. I wish I had, frankly, when I took the 
gave originally, made it a priority to talk to TVA more. But 
let's just say I am talking to you, and I will talk to the 
others.
    You should be a leader in solar and wind. What percentage 
of power do you think ought to come from solar and wind and 
geothermal?
    Mr. Howorth. As much as possible. Especially solar. I think 
wind is much more challenging.
    Senator Boxer. But what percentage? Because my State has 30 
percent. It depends, I mean, my State has a heck of a lot of 
sun and a heck of a lot of wind, and a lot of geothermal. We 
talk here about a 25 percent mandate, a 20, a 15. Without 
pinning you down, where do you see, between what and what do 
you think the TVA ought to do?
    Mr. Howorth. Ideally, I would like to see every house in 
the Tennessee Valley with a solar panel on its roof generating 
power back to TVA, paying the way for the consumers. I would 
like to see perhaps a universal building code, adopt some green 
elements so that houses, that is where we lose most of our 
money now, poorly built houses.
    Senator Boxer. True.
    Mr. Howorth. So I think these things are achievable.
    Senator Boxer. I am glad.
    Mr. Howorth. You are right, I think it is our business to 
go about doing it.
    Senator Boxer. I think this infusion of new energy into TVA 
is a moment, you could do this. I mean, I am saying to you, and 
you can express my views to your board of directors there, that 
coming from the State I come from and seeing what we have been 
able to do, it is just extraordinary. There is a new 
announcement of a big solar project that is going to power 
460,000 homes in the Mojave Desert. Now, this is saying no to 
imported oil, saying no to the folks that we don't want to keep 
giving our money to. More than half of our trade deficit goes 
to importing oil.
    So you are in a position to do something really good over 
there. I hope that you will question the old ways of doing 
things. Because it is not right for these times. I think in the 
amazing clarity of the Members of Congress those many years 
ago, saying environmental stewardship, it is pretty important, 
it works.
    The other thing I would say, on the nuclear front, and we 
do have gradations of differences, there is a lot of talk 
about, let's move forward very strong nuclear, as if nothing 
ever happened in Japan. There is talk about how, don't slow it 
down, because it will cost business money. How much is it 
costing the business that is dealing with the disaster in 
Japan? We don't even know how many billions.
    So we can't cut any corners, and I know, Mr. Ostendorff, 
you would never do that. But I do want to point out, it is 
really an important issue. As I said, I have more than half a 
million people living within 50 miles of one of my nuclear 
powerplants, no, let me say, a half a million in one and 7 
million, 7 million living within 50 miles of the other. 
Candidly, when I took someone aside, and I said, what is the 
evacuation plan, the woman looked at me and whispered in my 
ear, just look at the freeway at 5 o'clock at night. That is 
our evacuation plan.
    So whether it is looking at dry casks, which is very, very 
key, and I am going to send you, if you don't mind, all of you, 
some followup questions, because in about 2 minutes, you will 
be happy to know, I won't be able to talk any more. They are 
going to pull the proverbial plug on me.
    I just want us to move forward in a way that doesn't ever 
expose our people to what the people of Japan have gone 
through. It is the worst economic hit, it is a horrific loss of 
people, families, people never get over this, what happened 
over there. So it is something I would say, Godspeed to all of 
you. You have a moment. Look, we all are here for a very short 
period of time, to be philosophical about it. Either we are 
going to just get along and go along, or we are going to bring 
something to the job that really makes an impact. People might 
never even know that you did it. It might be one conversation 
you have with a fellow commissioner, it might be one moment in 
time that you didn't meet with someone who showed you a new 
way.
    I deal with this in my work. How can I make sure that I am 
here and am making a good difference for the people, a good, 
solid difference. I don't always do it, there are days I waste, 
there are days I make mistakes. But there are some things I do 
right. I am just hopeful in all of you, you will realize this 
moment you have, this short moment. It could be 20 years, it 
could be 10 years, it could be 5 years or a year. It is 
important, what you are doing, each of you, is so important. 
You have the lives of people in your hands, you really do. You 
have the very lives of people in your hands, and you have the 
ability to make their lives better and bring about economic 
growth and all those good things, and avert disaster. It is all 
in your hands.
    That is why I am so proud that you stepped up to the plate. 
These are not just unimportant nominations. That is why so many 
of us stayed so long.
    But I will not let the General go by without saying, after 
you leave Oklahoma, you just head west. A little birdie told me 
that you have a son in California. So we promise you your 
evening will be free. We will work you hard in the day.
    I hope that all of you think about what we have all said 
and understand the great respect we have for each of you and 
the hopes that we have for each of you. We hope that these 
nominations go smoothly.
    With that, we stand adjourned.
    [Whereupon, at 12 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
